                            SOCIAL SECURITY
                             Office of the Inspector General

                                      June 18, 2012


The Honorable Dave Camp
Chairman, Committee on
 Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

On December 23, 2011, as part of the Managers Report accompanying the Social
Security Administration’s (SSA) Fiscal Year 2012 appropriations, we were asked to
assess the legislative and administrative options, including potential challenges, for
expanding access to video hearings at SSA. As part of this review, we assessed costs
and benefits to claimants, claimant representatives, and taxpayers related to the use
and potential expansion of video hearings at the Office of Disability Adjudication and
Review.

The enclosed report addresses your request. To ensure SSA is aware of the
information provided to your office, we are forwarding a copy of this report to the
Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Special Agent-in-Charge of Congressional Affairs, at
(202) 358-6319.

                                          Sincerely,




                                          Patrick P. O’Carroll, Jr.
                                          Inspector General

Enclosure

cc:
Michael J. Astrue




              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
 CONGRESSIONAL RESPONSE
        REPORT
Current and Expanded Use of Video Hearings


              A-05-12-21287




                June 2012
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                       Background
OBJECTIVE
Our objective was to assess the legislative and administrative options, including
potential challenges, for expanding access to video hearings at the Social Security
Administration (SSA). As part of this review, we assessed costs and benefits to
claimants, claimant representatives, and taxpayers related to the current use and
potential expansion of video hearings at SSA’s Office of Disability Adjudication and
Review (ODAR).

BACKGROUND
The Managers Report 1 accompanying SSA’s Fiscal Year (FY) 2012 appropriations
(signed December 23, 2011) states,

          Video Technology-The conferees note the recent Administrative Conference
          of the United States report that referred to ODAR’s use of video technology as
          a model for other agencies. The conferees request a report by OIG [Office of
          the Inspector General] within 180 days of enactment analyzing legislative and
          administrative options, including potential challenges, for expanding access to
          video hearings. The report should analyze costs and benefits to the claimant,
          claimant representatives, and taxpayers related to the current use and
          potential expansion of the use of video hearings by SSA. The report should
          be sent to the House and Senate Appropriations Committees, the House
          Committee on Ways and Means and the Senate Committee on Finance.

The Agency’s October 2011 Customer Service Plan 2 noted video hearings are a
“signature initiative” at SSA and stated the Agency will increase the use of video
hearings. 3 In addition, the Administrative Conference of the United States (ACUS) 4
noted SSA’s use of video hearings as a best practice and recommended its expansion.




1
 OIG, SSA FY 2013 Budget Justification, Departments of Labor, Health and Human Services, and
Education and Related Agencies Appropriations Act, 2012: Senate Report (S. Rep. No. 112-84)—
Significant Items, p. 144.
2
    SSA, Customer Service Plan, October 24, 2011.
3
    For a history of video hearings at SSA, see Appendix B.
4
 ACUS is an independent Federal agency dedicated to improving the administrative process through
consensus-driven applied research, providing nonpartisan expert advice and recommendations for
improvement of Federal agency procedures. Its membership is composed of innovative Federal officials
and experts with diverse views and backgrounds from both the private sector and academia.



Current and Expanded Use of Video Hearings (A-05-12-21287)                                             1
A related ACUS report stated SSA video hearings could save ODAR an estimated
$59 million, annually. 5

We reviewed reports and studies related to ODAR video hearings use and expansion.
In addition, we requested copies of any SSA communications or stated plans to alter or
expand Agency video hearings use and requested all systems data that captured the
costs and benefits of video hearings to claimants, claimant representatives, and
taxpayers from October 2009 through March 2012. We also surveyed ODAR regional
office management and administrative law judges (ALJ) regarding video hearings and
travel to remote sites. Finally, we reviewed information related to legal and program
challenges that could affect the full use and/or expansion of video hearings at SSA. 6




5
 ACUS in-house research report, Agency Use of Video Hearings: Best Practices and Possibilities for
Expansion, May 2011, p. 11. We recalculated these estimated savings in the body of the report.
6
    See Appendix C for additional procedures and further detail on our scope and methodology.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                           2
                                                    Results of Review
Prior Office of the Inspector General reports have noted that video teleconferencing
(VTC) has given SSA additional flexibility in handling its aged and backlogged hearing
requests. We surveyed ODAR management to get its insight on the advantages and
disadvantages of ODAR’s video hearings use and found all 10 regional management
teams found video hearings reduced hearing office backlogs, improved case processing
times, and decreased ALJ travel to remote sites. However, VTC is only one of a
number of Agency initiatives that contributed to improved hearing timeliness, and
determining the contribution of each initiative is difficult. In addition, we found that while
SSA monitors its hearing costs, the Agency’s ability to separately measure and break
out video hearing costs was limited.

We reviewed a 2009 consultant study designed to identify the cost and benefits of VTC,
which ACUS later cited as showing annual savings of $59 million, $595 million over the
10 years of the study’s projections. We adjusted the consultant’s calculations after
correcting some of the model’s assumptions and found that the estimated annual
savings ranged from $5.2 to $10.9 million under this model, which would range from
$52 to $109 million over a 10-year period. Despite the data limitations and amended
savings, we believe the Agency should evaluate how it monitors video hearings costs to
accurately report cost savings and determine expansion options.

The Agency plans to expand the use of VTC, though claimant and ALJ preferences as
well as video capacity could slow down such efforts. Some of the options ODAR has for
expanding video capacity include greater use of field offices, law office sites, and
government sites. Relocation of unused equipment and expanded use of desktop video
units (DVU) could also increase the available capacity for video hearings. Moreover,
the Agency is considering regulations to prevent reimbursement of travel costs for
claimants and their representatives when the claimant objects to a scheduled video
hearing and therefore must travel with their representative to a farther location for an in-
person hearing. Other options ODAR managers suggested included mandating video
hearings and placing greater restrictions on claimants declining a scheduled video
hearing.

ROLE OF VIDEO HEARINGS

In FY 2011, approximately 20 percent of SSA’s hearings was conducted by VTC. As
Figure 1 illustrates, the percentage of hearings conducted by video increased from 17 to
20 percent between FYs 2009 and 2011. As of April 2012, this percentage had further
increased to 22 percent.




Current and Expanded Use of Video Hearings (A-05-12-21287)                                   3
     Figure 1: FYs 2009 Through 2012 National Average Video Hearing Usage
                                                                                                               22
                                                                                   20.3          20.1
                                                         22
                                                         20
                                                                     17
                                                         18
                                            Percentage   16
                                                         14
                                                         12
                                                         10
                                                                  2009         2010          2011         2012
                                                                                   Fiscal Year

               Note: FY 2012 is through April 2012. A final annual rate may be different.

While the percent of hearings using VTC has not increased significantly, the number of
video hearings increased by about 50 percent over a 2-year period, from 86,320 in
FY 2009 to 129,775 in FY 2011. Growth between FYs 2010 and 2011 was about
7.6 percent.

                                            Figure 2: FYs 2009 Through 2011 Video Hearings

                                                                                          120,624        129,775
                                              140000
                 Number of Video Hearings




                                              120000
                                                                          86,320
                                              100000
                                                  80000
                                                  60000
                                                  40000
                                                  20000
                                                              0
                                                                     2009             2010              2011
                                                                                   Fiscal Year

Video use varied by region in FY 2011 from 23 percent in the Kansas City Region to
10 percent in San Francisco Region. 7 As Table 1 shows, we found the Kansas City
Region had the highest percentage of video hearings held, followed by the Philadelphia
and Dallas Regions. While the Atlanta Region held the most video hearings with
30,357, in relation to its total hearings, video hearings held was only 18 percent, in



7
  We based on analysis on the location of the ALJ. The distribution may change if we focused on the
location of the claimants.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                                          4
comparison to the Kansas City Region. National Hearing Centers (NHC) were designed
to conduct only video hearings. 8

                            Table 1: FY 2011 Video Hearings Held
                (Based on the Location of the ALJ Conducting the Hearing)
                                      Video         Total
                                                                Video Hearings
                 Region              Hearings     Hearings
                                                                    Percent
                                       Held         Held
       National Hearing Centers        28,222       28,244                  100
       Kansas City                      5,552       23,840                   23
       Philadelphia                    14,525       66,038                   22
       Dallas                          15,526       77,241                   20
       Atlanta                         30,357      165,883                   18
       Boston                           4,004       21,922                   18
       New York                         7,879       54,165                   15
       Seattle                          2,661       19,435                   14
       Denver                           2,334       16,740                   14
       Chicago                         11,177       97,691                   11
       San Francisco                    7,538       73,758                   10
       National Totals/Percent        129,775      644,957                   20

VIDEO HEARING BENEFITS TO SSA

In the past, claimants living in areas remote from hearing offices had to wait for the ALJ
to travel to their location for a hearing, and, generally, the ALJ wanted a sufficient
number of cases to justify the trip, which delayed hearings for the public. Video hearing
technology has made geography less of a factor when determining where each party is
located. In addition, VTC allowed ALJs to spend more time in the hearing office rather
than traveling to remote locations, which provided more time for ALJs to focus on
hearings while reducing hearing office costs for ALJ travel.

Assistance with Aged Cases and Backlogs

Before the implementation of video hearings, a parent hearing office typically served a
fixed geographic area, and the extended reach of parent hearing offices was historically
limited to areas serviced by ALJs traveling to remote sites. Various SSA initiatives to
eliminate the pending hearings backlog, including the Video Hearing and National
Hearing Centers initiatives, and additional hiring in ODAR with American Recovery and
Reinvestment Act of 2009 funds, 9 have increased ODAR’s ability to assist hearing

8
 NHCs operate in Albuquerque, New Mexico; Baltimore, Maryland; Chicago, Illinois; Falls Church,
Virginia; and St. Louis, Missouri. NHCs are directed by the Office of the Chief ALJ in Falls Church,
Virginia, not the Regional Chief ALJs. While NHCs were established to conduct video hearings, NHC
ALJs may travel to conduct in-person hearings when claimants refuse video hearings.
9
  American Recovery and Reinvestment Act of 2009, Pub. L. No. 111-5, 123 Stat. 115 (2009). We
reported on ODAR’s hiring in the December 2009 SSA OIG report, Quick Response Evaluation: The
Office of Disability Adjudication and Review’s Staffing Plans Under the American Recovery and
Reinvestment Act of 2009 (A-12-09-29140).


Current and Expanded Use of Video Hearings (A-05-12-21287)                                             5
offices with significant backlogs while adding new resources. 10 For instance, aging
backlogs from one hearing office could be handled by other offices via video hearings,
allowing more timely hearings.

Our September 2009 report on SSA’s aged pending hearings 11 noted that ODAR’s
efforts under the Aged Case Workload initiative were enhanced by other initiatives to
realign service areas, transfer cases, increase video hearings, and establish NHCs. We
noted that the combination of these initiatives assisted ODAR with claims transferred
within and between regions since they allowed remote hearing offices and the NHCs to
meet with claimants and decide claims via video. Our March 2010 12 report focused on
how the video and NHC initiatives assisted the Kansas City Region with hearing
timeliness by allowing hearing offices to transfer some of their pending hearing claims to
other regions for processing.

Our April 2012 report 13 on NHCs further demonstrated how video hearings assisted the
Agency with hearing backlogs. During FYs 2010 and 2011, ODAR’s 5 NHCs processed
over 56,000 requests for hearings to assist backlogged hearing offices with older cases.
The Chicago Region transferred the highest number of cases during this period, about
50 percent of all cases the NHCs received. These transfers allowed the Chicago
Region to address case backlogs while new hearing offices were being constructed to
permanently address workload needs.

All 10 of the ODAR regional management teams we surveyed indicated that video
hearings had assisted with regional workloads by reducing hearing office backlogs,
improving case processing times, and reducing ALJ travel to remote sites. For
example, in the New York Region, managers at the Syracuse Hearing Office stated that
the office ended FY 2009 with an average case processing time of 594 days per closed
case. In subsequent periods, cases from the Syracuse service area were sent to ALJs
in the NHCs in Baltimore, Maryland, and Falls Church, Virginia, who held hearings via
VTC. This reduced the total number of cases pending in Syracuse, allowing for quicker
processing of the remaining cases. As of April 2012, the average processing time in
Syracuse was 340 days, which was a reduction of 254 days in average processing time
since the close of FY 2009.




10
  SSA’s Plans to Reduce the Disability Backlogs: Hearing Before Senate Finance Committee, 110th
Cong. (May 23, 2007) (Statement on the Record of Michael J. Astrue, Commissioner of Social Security).
SSA established more than 30 initiatives to eliminate the hearings backlog.
11
     SSA OIG, Aged Claims at the Hearing Level (A-12-08-18071), September 2009.
12
 SSA OIG, Congressional Response Report: Hearing Office Backlogs in Missouri (A-12-10-21039),
March 2010.
13
  SSA OIG, The Role of National Hearing Centers in Reducing the Hearings Backlog (A-12-11-11147),
April 2012.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                              6
Other Resources Directed at the Backlog

Determining the exact contribution of VTC to the improved hearing timeliness versus
other Agency actions is difficult. While national average processing times for hearing
cases has declined (see Figure 3), 14 this may relate to a number of factors. For
instance, during FYs 2010 and 2011, ODAR added or expanded 28 hearing offices,
satellite offices, and National Case Assistance Centers (NCAC). 15 As a result, in
addition to video hearings, individuals in otherwise remote and backlogged regions were
being served through in-person hearings at new hearing offices.

                              Figure 3: National Average Processing Times for Hearings
                                                  (FYs 2009 Through 2011)
                              550
                              500
             Number of Days




                              450
                              400
                              350
                              300
                              250
                              200
                                        FY 2009               FY 2010        FY 2011
                                                             Fiscal Year

Travel Cost Savings

Another potential benefit of video hearings is a reduction in ALJ travel to remote sites,
which would reduce direct travel costs, such as flights and hotels, and more significant
indirect travel costs, including the cost of the ALJ’s time in transit. Additional cost
savings could also relate to claimant and claimant representative travel costs
associated with travel to distant hearing locations.

We found that while ODAR captures hearing-related costs, its ability to separately
measure ALJ travel-related hearing costs was limited. ODAR provided the number of
hearing cases handled at remote sites in FYs 2009 to 2011 (see Table 2), which
indicated that the percent of all cases being heard at remote sites had declined over the
years. However, we found ODAR statistics on ALJ travel costs and time spent traveling
to remote sites for hearings could not be separated from ALJ time and costs related to
travel for training or meetings.



14
     The average processing time was 350 days as of April 2012.
15
  During FYs 2010-2011, NCACs provided backlog support to multiple components in ODAR as needed,
including assisting hearing offices and NHCs with decision writing and case pulling.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                     7
           Table 2: Number of Hearings at Remote Sites and ALJ Travel Costs
                                    (FYs 2009 Through 2011)
                         Costs                   FY 2009                FY 2010          FY 2011
        Number of Hearings at Remote Sites         110,917                118,917            99,875
        Percent of All ALJ Hearings                   21%                    20%               16%
                         1
        ALJ Travel Costs                        $3,366,405             $3,736,685        $3,066,863
      Note 1: ALJ travel costs included travel incurred for other reasons besides conducting hearings,
      such as travel to attend training.

We could neither break out travel costs between claimants and claimant representatives
nor determine what portion of these costs could be reduced as a result of video
hearings. ODAR collected all of these costs under “Non-SSA Personnel Travel” in its
financial system. 16 However, some of these travel reimbursements may have related to
travel to a hearing office rather than travel to remote sites. 17

      Table 3: Other Non-SSA Travel Costs Associated with Hearings Operations
                                   (FYs 2009 Through 2011)
                   Costs                  FY 2009       FY 2010                      FY 2011
          Non-SSA Personnel Travel       $18,470,256   $17,428,262                   $17,262,665
         Note: Non-SSA personnel costs included travel incurred by claimants and claimant
         representatives.

All 10 ODAR regional management teams we surveyed confirmed that ALJs still
traveled to remote sites to hold hearings. According to those surveyed, the hearings
conducted by ALJs who traveled to a remote site varied between 5 and 30 percent. 18

Consultant Study of Video Hearing Options

In FY 2009, the Agency hired a consultant to study video hearing use in ODAR. We
reviewed the consultant’s study19 to understand the cost figures used to support the
Agency’s expansion of video hearings. In our March 2012 discussion with consultant
staff, they stated they used data obtained from ODAR to calculate estimates of growth
of video hearing usage. The consultant staff also projected costs based on projected
hearings for FYs 2009 through 2018 using three cost alternatives (see Table 4). Each
cost alternative yielded estimated costs and benefits that varied depending on how
ODAR rolled out video hearings. 20

16
   ODAR management informed us that the Agency established a new cost category to separately track
claimant representative travel costs effective October 1, 2011.
17
   SSA, Administrative Instructions Manual System, Financial Management Manual 07.26.03.B — Travel
in the United States of More Than 75 Miles From Residence or Office to Hearing Site (May 19, 2009).
18
     See Appendix I for more on ALJ travel to remote sites.
19
  SSA, Consultant Study, ODAR Video Telecommunications Conferencing Cost Benefit Analysis Update,
August 2009.
20
     See Appendix F.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                               8
The consultant outlined three options, and recommended an expanded rollout of VTC
beyond ODAR’s planned approach (Alternative 2). From our review, it appears the
Agency decided to follow a modified version of Alternative 2. However, in our
discussions with ODAR managers, they did not know which, if any, option management
selected.

                         Table 4: Consultant-Provided VTC Alternatives
                 Alternatives                            Description
                                    Assumes the status before the use of VTC in
                 Status Quo         which ALJs traveled across different regions for
                                    hearings.
                                    Notes that ODAR already had several hundred
                                    VTC units rolled out nationwide and examined
        1 - Current VTC Rollout     the impact of annual growth at the current rate
                                    (that is, an addition of 100 wall mounted units and
                                    100 desktop video units, annually).
                                    Examines the impact of a rollout that is a hybrid
                                    of Alternatives 1 and 3, with VTC units in
        2 - Hybrid VTC Rollout
                                    80 percent of hearing rooms, 50 percent of ALJ
                                    offices, and 70 percent of field offices.
                                    Examines the impact of a full rollout with
        3 – Full VTC Rollout        100 percent saturation by placing VTC in every
                                    hearing room, ALJ office, and field office.

Using the results of the consultant’s study, ACUS yielded a $59 million annual savings
for the Agency using their assumptions, $595 million over the 10 years covered in the
study. 21 This $595 million represented the difference between the status quo
(approximately $838 million), or expected hearing costs without VTC, and Alternative 1
(approximately $243 million), representing a continuation of the Agency’s current VTC
model.

Our review of the status quo calculation found that the estimates assumed ALJs would
travel to every hearing, while ODAR’s estimates as well as the consultant’s model
assumed considerably less ALJ travel without VTC: 40 percent in the consultant model
and 35 percent in the Agency data provided to the consultant.

We adjusted the consultant’s calculations assuming 35 percent of all hearings would
have involved travel before the use of VTC and found the estimated annual savings
ranged from $5.2 to $10.9 million, annually (see Table 5). It is possible these savings
could be even lower since the percent of hearings conducted via VTC was considerably
lower than the estimated percent during FYs 2009 to 2011. We discuss this later in the
report.




21
  ACUS in-house research report, Agency Use of Video Hearings: Best Practices and Possibilities for
Expansion, May 10, 2011, p. 11.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                            9
                               Table 5: Adjusted Estimate of Average Annual Cost Savings
                                           (Based on Consultant Cost Data – FYs 2009 to 2018)
                                                                  Annualized          Annualized
                                            Alternatives
                                                                 Cost Estimate      Cost Savings
                                   Status Quo                        $33,538,382                NA
                                   1 - Current VTC Rollout           $24,280,389         $9,257,993
                                   2 - Hybrid VTC Rollout            $22,626,369        $10,912,013
                                   3 - Full VTC Rollout              $28,295,910         $5,242,472

Now that several FYs have passed since the consultant completed its cost-benefit
analysis, the Agency should quantify the tangible and intangible benefits it has achieved
from video hearings. The Agency should also quantify and document the costs incurred
to compare them with the benefits achieved. The Agency will need to do this to
determine the most cost-effective means of any VTC expansion.

CHALLENGES WITH VIDEO HEARING IMPLEMENTATION

The use of VTC presents its own challenges, such as obtaining ALJ and claimant
acceptance and maintaining sufficient levels of VTC equipment and hearing rooms.
Although the earlier consultant study estimated 33 percent of all hearings would be
conducted by video in FY 2011, only 20 percent of hearings was video hearings (see
Figure 4). SSA predicted an 8-percent increase in the number of video hearings in
FY 2012 followed by a 10-percent increase in FY 2013. 22 Overcoming these challenges
should assist the Agency in reaching these goals.

                  Figure 4: Actual Video Hearings Versus Consultant’s Estimate1
                                                         (FYs 2009 to 2012)2
                                   40                                                          36
                                                                                     33
                                   35
                                   30
             Percent of Hearings




                                                             25
                                   25
                                   20         17
                                                            20.3                    20.1      22
                                   15
                                              15
                                   10
                                    5
                                    0
                                           FY 2009         FY 2010                 FY 2011   FY 2012
                                                                     Fiscal Year
                                                              ODAR            Consultant

                    Note 1: Consultant’s estimate taken from Alternative 2 – Hybrid VTC Rollout.
                    Note 2: FY 2012 data through April 2012.



22
     SSA, Customer Service Plan, October 24, 2011.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                             10
ALJ and Claimant Acceptance

In our April 2011 audit, 23 we learned that some ALJs did not conduct video hearings
based on their workloads and/or preferred work styles. In addition, some reported
equipment problems as well as a lack of training on using video equipment. We
highlighted some of these specific ALJ concerns in our April 2011 report, including the
following.

•     Reduced ability to observe the claimant when conducting a video hearing as well as
      diminished interaction with a claimant.
•     Small screens or poor video restricted the ability to observe everything in the hearing
      room at the same time.
•     An audio lag in video hearings inhibits the free flow of speech.

While it may not be necessary for every ALJ to use the equipment, perceptions of
equipment problems may inhibit greater use. 24 In our survey of regional managers,
50 percent stated technical problems with the video equipment had delayed hearings. 25

In addition to ALJ concerns potentially reducing the frequency of video hearings,
claimants have the right to refuse a video hearing for any reason and opt for an in-
person hearing. This can delay the hearings process and lead to ALJ travel. Our
April 2012 report on NHCs 26 recommended the Agency consider modifying the
regulations to prevent claimants from declining video hearings close to the day of the
hearing. SSA agreed with our recommendation.

All 10 of the ODAR regional management teams we surveyed indicated they had
experienced problems scheduling video hearings with all required parties. 27 In

23
     SSA OIG, Use of Video Hearings to Reduce the Hearing Case Backlog (A-05-08-18070), April 2011.
24
   SSA’s Office of Quality Performance (OQP) issued a report after assessing (1) any differences or
problematic areas between hearings conducted by VTC and hearings conducted in-person and (2) any
issues unique to processing VTC hearings. After a review of 560 hearing decisions – 280 related to VTC
hearings and 280 related to in-person hearings – OQP reported no significant differences between the
accuracy rates of hearing decisions related to both types of hearings. The OQP reviewers also examined
several areas unique to the VTC hearing decision, such as location of the claimant and technical
difficulties associated with the VTC hearing, and found that these issues were generally handled
appropriately. See SSA, OQP, Quality Review Assessment Report of Video Teleconference Hearings,
November 2009.
25
  We did not ask about specific offices, so we could not determine the frequency of the technical
problems. ODAR management stated that 236 video hearings held in FY 2011 were rescheduled due to
equipment problems.
26
  SSA OIG, The Role of National Hearing Centers in Reducing the Hearings Backlog (A-12-11-11147),
April 2012.
27
 We discussed scheduling difficulties in our April 2012 audit, The Role of National Hearing Centers in
Reducing the Hearings Backlog (A-12-11-11147).


Current and Expanded Use of Video Hearings (A-05-12-21287)                                               11
particular, all of the regional respondents stated scheduling conflicts with claimant
representatives were problematic, and 90 percent experienced problems with claimants
declining video hearings.

VTC Equipment and Hearing Rooms

In our 2012 audit of NHCs, 28 we reported the NHC managers noted they needed more
video capacity to conduct video hearings. Each video hearing requires a minimum of
two hearing locations, and while the NHC ALJs often use permanent remote sites to
hold video hearings, these sites were often used for in-person hearings, leaving less
space for video hearings. Use of the permanent remote sites increased after the
Agency started closing its temporary remote sites in March 2011.

Since ODAR implemented video hearings nationwide in 2003, 29 it has installed
1,295 pieces of video equipment. According to ODAR, approximately 95 percent of
Americans has a VTC site within 75 miles of their home. 30 As Figure 5 shows, video
hearings can be conducted in a variety of locations, such as permanent remote sites
(PRS), 31 claimant-only video rooms (COV), 32 and field office video sites. 33 At the time
of our review, ODAR had 10 pending COV sites, 31 pending PRSs, and 50 pending
field office video sites.

While most of the claimants attending video hearings are in leased permanent remote
sites (see Figure 5), ODAR is also using existing field offices to expand its video
footprint. This would allow claimants to conduct a variety of SSA business at one
location. In addition, ODAR uses equipment provided by other parties, such as law
firms under the Representative Video Project (RVP), 34 State facilities, and prison
systems. These additional locations provide ODAR with opportunities to carry out its
mission without leasing space, which is consistent with a Presidential directive 35

28
     Id.
29
     See Appendix B for more information on video hearing implementation.
30
     Any locations beyond 75 miles of a hearing office are defined by the Agency as “remote.”
31
   PRS has been assigned to, or leased for, ODAR by the General Services Administration, in a city within
the defined service area of a hearing office. Such sites are established and located under the guidance
of, and subject to, formal approval processes in the Hearing Office Chief ALJ (HOCALJ) and other
Agency components.
32
   COVs are small hearing rooms that contain desktop video equipment and are large enough to hold the
claimant, claimant representative, hearing reporter, and experts, if required. COVs are used in a number
of regions. The Chicago Region has established a unique set of COVs called spokes.
33
     Field offices, which contain video equipment, are under the Deputy Commissioner of Operations.
34
     See Appendix B for a description of RVP.
35
  The White House, Presidential Memorandum, Disposing of Unneeded Federal Real Estate,
June 10, 2010.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                            12
requiring actions that include greater use of current facilities and pursuing consolidation
opportunities within and across agencies.

                     Figure 5: Remote Video Hearing Sites Used in FY 2011
                                      (Number of Hearings per Site)

                     Representative         Jail/Prison      Other
                      Video Project             900          2,831
                          2,697
         PRS- Govt
          Building
           4,448

     ODAR COVs
       6,575


         Spokes
          7,260



          Field Office                                                             PRS - Leased
             9,302                                                                   77,910




          Note: We did not include hearing offices, though ALJs can hold video hearings
          from another location with claimants at hearing offices.

One way to make more VTC equipment available is to ensure it is being used and, if it is
not, relocate it to where it can be used. In our April 2011 audit of video hearings, 36 we
recommended that SSA periodically evaluate video hearing equipment requirements at
each location against historical and expected usage. We also noted that such periodic
evaluations should be conducted before new equipment is ordered. In response to the
report, the Agency said it monitors the use of this equipment and makes necessary
adjustments. As part of this review, we asked ODAR to identify equipment transfers
from low- to high-use areas. At the time of our review, ODAR provided data that
indicated it completed 16 equipment transfers to other locations in FY 2011. 37

To make more hearing rooms available, ODAR could require that ALJs use DVUs in
their offices. In the consultant study, the most cost-beneficial alternative noted that

36
     SSA OIG, Use of Video Hearings to Reduce the Hearing Case Backlog (A-05-08-18070), April 2011.
37
 The data ODAR provided also reflected equipment transfers due to office relocation and intra-office
moves, which we did not include.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                             13
50 percent of ALJ offices would need to be equipped with DVUs to meet some of the
video goals. While all of the ALJs in the NHCs used DVUs, only the HOCALJs at the
hearing offices were issued this equipment. We reviewed HOCALJ use of DVUs in
FY 2011 and found that only 76 of the approximately 160 HOCALJs in the field
conducted hearings with this equipment during that period. Given the lower costs of the
DVU equipment, as well as potential VTC capacity issues in the future should video use
increase, ODAR may be able to reduce costs and increase its flexibility by expanding
the DVUs to additional ALJs. In our April 2011 audit of video hearings, we
recommended that SSA consider expanding DVUs to all interested ALJs. The Agency
agreed with our recommendation, noting DVUs are a less costly, effective means for
conducting hearings.

LEGAL AND REGULATORY ISSUES

The Agency has proposed regulatory changes under consideration in the January 2012
Unified Agenda. The proposed regulation seeks to prevent reimbursement of additional
travel costs claimants and their representatives incur when the claimant objects to a
scheduled video hearing and, as a result, the claimant and their representative must
travel farther for an in-person hearing. The Agency expects to save on video hearing
travel costs while increasing participation in video hearings.

We found that 60 percent of the ODAR regional management teams we surveyed
suggested mandating video hearings unless an ALJ determines that a video hearing is
not appropriate. We also found that 40 percent of the ODAR regional management
teams we surveyed stated SSA should not reimburse travel costs for claimants and/or
claimant representatives who decline a video hearing for an in-person hearing. One
regional management team suggested requiring claimants and or claimant
representatives to decline video hearings within 10 to 20 days after receipt of the notice
of hearing.

The Agency would need to consider whether such legal or regulatory changes could
increase the use of VTC and help the Agency reach its video hearings goals. This may
entail discussions with all parties, including those who are reluctant to use VTC.




Current and Expanded Use of Video Hearings (A-05-12-21287)                              14
                                                               Conclusions
While VTC has provided SSA with a number of benefits, such as flexibility in handling its
aged and backlogged hearing requests, it was not possible to determine the specific
benefits nationwide because of other changes at ODAR, such as additional hiring and
new hearing offices. In addition, we could not clearly identify cost savings based on the
structure of ODAR’s financial accounts, even though ODAR data indicated ALJ travel to
remote sites had declined as a percent of all hearings. Moreover, the 2009 consultant
study, after our adjustment, demonstrated lower cost savings than reported by ACUS.

We believe the Agency needs to focus its efforts on ensuring the public and its
employees consider the advantages of video hearings while addressing any training or
equipment quality issues identified by ALJs and other employees. Moreover, in a time
of constrained budgets, ODAR needs to ensure video capacity issues are addressed
through expansion within the existing Agency footprint, such as field offices, full use of
existing equipment, and requiring DVU usage by more ALJs.

Finally, we believe the proposed regulatory changes and other ideas proposed by
ODAR managers may increase VTC usage. However, such changes, to ensure
negative perceptions and concerns are addressed, must go hand in hand with greater
public outreach, solicitation of feedback, and reasonable exclusions to mandatory VTC
use by claimants.




Current and Expanded Use of Video Hearings (A-05-12-21287)                               15
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – History of Video Hearings
APPENDIX C – Scope and Methodology
APPENDIX D – Video Hearing Equipment and Maintenance Costs
APPENDIX E – Video Equipment Installation, Maintenance, and Contingency Plans
APPENDIX F – Consultant’s Cost-Benefit Report on Video Teleconferencing
APPENDIX G – Administrative Conference of the United States Report
APPENDIX H – Questionnaires Sent Office of Disability Adjudication and Review
             Regional Offices
APPENDIX I – Survey of Administrative Law Judges on Travel to Remote Sites




Current and Expanded Use of Video Hearings (A-05-12-21287)
                                                                        Appendix A

Acronyms
    ACUS               Administrative Conference of the United States
    ALJ                Administrative Law Judge
    COV                Claimant Only Video
    DCO                Deputy Commissioner of Operations
    DRAP               Digital Recording Audio Playback
    DVU                Desktop Video Unit
    Fed. Reg.          Federal Register
    FY                 Fiscal Year
    HD                 High Definition
    HOCALJ             Hearing Office Chief Administrative Law Judge
    NHC                National Hearing Center
    NCAC               National Case Assistance Center
    OCALJ              Office of Chief Administrative Law Judge
    ODAR               Office of Disability Adjudication and Review
    OIG                Office of the Inspector General
    OQP                Office of Quality Performance
    OTSO               Office of Telecommunications and Systems Operations
    PRS                Permanent Remote Site
    RVP                Representative Video Project
    SSA                Social Security Administration
    TRS                Temporary Remote Site
    VCCC               Video Communications Control Center
    VTC                Video Teleconferencing




Current and Expanded Use of Video Hearings (A-05-12-21287)
                                                                               Appendix B

History of Video Hearings
In 1996, the Social Security Administration (SSA) published a Notice of Social Security
Ruling, 1 which explained that the Agency planned to explore ways for claimants to do
business with it electronically. Video teleconferencing (VTC) was one of the
technologies SSA identified as having the potential to better serve claimants.

In January 2001, SSA issued a Notice of Proposed Rulemaking related to VTC. 2 In the
Notice, SSA stated that, in 2000, it conducted VTC hearings between the Huntington,
West Virginia, Hearing Office and its Prestonsburg, Kentucky, remote location; the
Albuquerque, New Mexico, Hearing Office and its El Paso, Texas, remote site; and the
West Des Moines, Iowa, Hearing Office with tie-in to the Iowa Communications
Network. At the beginning of these tests, all three sites had some equipment problems.
Participation rates at Huntington-Prestonsburg and Albuquerque-El Paso were low, but
the Iowa test had over 40-percent participation rate. SSA surveyed participants from
the three tests to assess customer satisfaction with VTC hearings. The Iowa
respondents rated the VTC hearings as convenient and good.

SSA test data showed that the processing time for VTC hearings was substantially
shorter than for in-person remote location hearings during the same time, and the ratio
of hearings held to hearings scheduled was significantly higher for VTC hearings than
for in-person hearings.

In December 2003, SSA published a final rule 3 authorizing the use of VTC for disability
adjudication hearings to provide greater scheduling flexibility, improved hearing
efficiency, and additional service delivery options.

VIDEO HEARINGS INITIATIVE

Various SSA initiatives, including the Video Hearing and National Hearing Center,
increased the Office of Disability Adjudication and Review’s (ODAR) ability to assist
hearing offices with significant backlogs while adding new resources. For instance,
excessive backlogs from one hearing office could be handled by other offices via video
hearings, allowing more timely hearings for all claimants involved. Before video
hearings were used, a hearing office typically served a fixed geographic area, and the
extended reach of hearing offices was historically limited to nearby areas serviced by

1
    Electronic Service Delivery, 61 Fed. Reg. 68808 (December 30, 1996).
2
  Scheduling Video Teleconference Hearings Before Administrative Law Judges, 66 Fed. Reg. 1059
(January 5, 2001).
3
 68 Fed. Reg. 69003 (December 11, 2003). This Final Rule adopted the earlier language in 68 Fed.
Reg. 5210.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                         B-1
administrative law judges (ALJ) traveling to temporary and permanent remote sites.
Through video hearing technology, geography has become less of a factor when
determining where each of the parties is located.

NATIONAL HEARING CENTERS

As Table B-1 reflects, between October 2007 and July 2010, ODAR opened five
National Hearing Centers (NHC). 4 Initially, hearing offices transferred their oldest cases
to the NHCs. However, according to NHC management, hearing offices are transferring
newer cases to the NHCs.

                                 Table B-1: NHC Opening Dates
                                   Location                Operations Started
                        Falls Church, Virginia               October 2007
                        Albuquerque, New Mexico               March 2009
                        Chicago, Illinois                      June 2009
                        Baltimore, Maryland                    July 2009
                        St. Louis, Missouri                    July 2010

During FYs 2010 and 2011, ODAR’s 5 NHCs processed over 56,000 hearings to assist
backlogged hearing offices with older cases. The Chicago Region transferred the
highest number of cases during this period, about 50 percent of all cases the NHCs
received. These transfers allowed the Chicago Region to address case backlogs while
new hearing offices were being constructed to permanently address workload needs.

DESKTOP VIDEO UNITS

Desktop Video Units (DVU) are a key part of the Agency’s video hearing expansion
plans for the convenience of individuals who have filed a hearing request. 5 Using the
small, flat screen DVU monitors enables ALJs to conduct video hearings in their offices
instead of occupying a hearing room. After limited testing of DVUs in FY 2008, the
Agency reported positive feedback and continues installing new equipment nationwide,
such as in field office personal interview rooms and attorney/claimant conference rooms
at the hearing offices. To date, the primary parties using this equipment have been the
Hearing Office Chief ALJs and ALJs in the NHCs.

REPRESENTATIVE VIDEO PROJECT

In September 2008, under the Video Hearing backlog initiative, SSA expanded the use
of video hearings through the Representative Video Project (RVP), allowing
representatives and claimants to attend video hearings at claimant representatives’
offices while the ALJ is at another location. Under RVP, participating claimant

4
 SSA OIG, The Role of National Hearing Centers in Reducing the Hearings Backlog (A-12-11-11147),
April 2012.
5
    SSA OIG, Use of Video Hearings to Reduce the Hearing Case Backlog (A-05-08-18070), April 2011.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                           B-2
representatives are required to sign an agreement with SSA and procure their own
video equipment.

As Table B-2 shows, we also found ODAR held 2,697 RVP hearings in FY 2011, or
about 2.1 percent of the 129,775 video hearings conducted in FY 2011. Of these,
about 39 percent was with NHC ALJs and 20 percent with Kansas City ALJs.

                        Table B-2: FY 2011 RVP Hearings Held
               (Based on the Location of the ALJ Conducting the Hearing)
                                              RVP
                      ODAR Region           Hearings       Percent
                                              Held
               National Hearing Centers         1,051           38.97
               Kansas City                        541           20.06
               Chicago                            359           13.31
               Philadelphia                       272           10.09
               Dallas                             207            7.68
               Atlanta                            176            6.53
               San Francisco                       44            1.63
               Boston                              27            1.00
               Denver                              11            0.41
               New York                             9            0.33
               Seattle                               -              -
               Total                            2,697            100




Current and Expanded Use of Video Hearings (A-05-12-21287)                         B-3
                                                                       Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable laws and regulations, as well as Agency policies and
    procedures, related to video hearings.

•   Reviewed prior Office of the Inspector General and Government Accountability
    Office audit reports pertaining to video hearings.

•   Reviewed external reports related to video hearings, including the Administrative
    Conference of the United States’ May 2011 in-house report and June 2011
    recommendation on Agency Use of Video Hearings: Best Practices and Possibilities
    for Expansion, and the August 2009 Consultant’s Cost Benefit Analysis of the ODAR
    Video Telecommunication Conferencing Program reports. We analyzed these
    reports to determine their coverage, reasonableness, and overall insights related to
    the congressional request.

•   Met with managers and staff in the Offices of Disability Adjudication and Review
    (ODAR) and Systems to learn more about the Agency’s use of and support for video
    teleconferencing (VTC).

•   Requested all Social Security Administration (SSA) communications or stated plans
    to alter or expand VTC usage in the Agency. We requested all information related to
    any legal or program challenges that may affect the full usage and/or expansion of
    VTC equipment at the Agency.

•   Obtained Case Processing and Management System data to determine the percent
    of hearings involving the use of video hearings equipment as well as video hearings
    usage trends by hearing office and region.

•   Reviewed information from ODAR on costs related to (1) equipment and related
    support costs (for example, full-wall units, desk-top video units, communications),
    (2) hearing office/remote site/claimant only video site leasing; (3) administrative law
    judge (ALJ) travel, (4) claimant and claimant representative travel, and (5) other
    costs incurred or avoided because of the operation of video hearings. We requested
    any Agency data (as well as the name of the related system) that captured the costs
    and benefits of video hearings to the claimant, claimant representative, and
    taxpayers.

•   Reviewed other trends related to video hearings usage, such as the Representative
    Video Project, to understand alternatives to SSA procurement of video hearings
    equipment.


Current and Expanded Use of Video Hearings (A-05-12-21287)                              C-1
•   Sent questionnaires to all ODAR regional office management personnel. We
    emailed the questionnaire on April 11, 2012. After summarizing the responses for
    the report, we surveyed various ALJs referred by regional office management who
    travel to remote sites to conduct hearings.

Our review was limited in scope to analyzing workload and consultant data, as supplied
to us by the Agency. As such, we relied on the representations of Agency personnel
indicating the data reported to us were complete and accurate to the best of their
awareness and ability. Accordingly, our work did not constitute an audit of such
information. We conducted our review from January to April 2012 in Chicago, Illinois.
The principle entity audited was the Office of the Deputy Commissioner for Disability
Adjudication and Review. W e conducted our work in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.




Current and Expanded Use of Video Hearings (A-05-12-21287)                         C-2
                                                                          Appendix D

Video Hearing Equipment and Maintenance
Costs
Office of Disability Adjudication and Review (ODAR) staff provided us with the cost of
video equipment. As illustrated in Tables D-1 and D-2, a wall-mounted system cost
$25,858, and the desk-top video unit (DVU) component cost $8,970. The cost of wall
mounted components included a 60-inch high definition (HD) flat panel, HD camera,
installation, and 1-year maintenance.

                     Table D-1: Unit Cost for Wall Mount System
                                     in FY 2012
                       Room System – Wall Mounted
                                                                  Costs
                                  Components
                 HD Video Conferencing System 60-inch              $15,046
                 Premier 1 Year Maintenance                         $1,417
                 60-inch HD Flat Panel Monitor                      $2,434
                 EagleEye HD Camera                                 $2,230
                 Chief Tilting Plasma Mount                          $216
                 HDX 9000 Bracket Hardware                             $27
                 Phoenix Port Adaptors (2)                             $54
                 HDX Microphone Array (2)                            $520
                 Surge Protector                                       $10
                 Cable Floor Track                                     $61
                 Panduit Raceway                                       $44
                 Low Profile Wall Rack                               $305
                 Camera Shelf                                        $118
                 Custom Shipping                                    $1,040
                 Cable/Wiring/Installation                          $2,336
                 Total Equipment Cost, Per Unit                    $25,858
                Note: The Social Security Administration (SSA), Office of
                Telecommunications and Systems Operations (OTSO) provided the
                unit costs for FY 2012 as of March 2012.

As Table D-2 shows, the costs of the DVU component included an HD video conference
system, installation, and 1-year maintenance.




Current and Expanded Use of Video Hearings (A-05-12-21287)                           D-1
                     Table D-2: Unit Cost for Desktop Video Unit
                                     in FY 2012
                  Desktop Video Unit – Components                   Costs
                  HD Video Conferencing System (with
                                                                       $6,307
                  DRAP adaptor)
                  Premier 1 Year Maintenance                            $762
                  Cable Floor Track                                       $61
                  HDX Remote Control                                    $162
                  Surge Protector                                         $10
                  Cable/Wiring/Installation                            $1,668
                  Total DVU System Cost, Per Unit                      $8,970
                 Note: OTSO provided the unit costs for FY 2012 as of March 2012.

We also found total equipment purchase costs declined from $4.7 million in FY 2010 to
$1.9 million in FY 2011. According to OTSO, the Agency had not purchased any
equipment in FY 2012 through March 2012. Table D-3 below provides equipment
purchase costs for FYs 2009 through 2011.

          Table D-3: FYs 2009 Through 2011 Equipment Purchase Costs
                                                   Number of
                                                                    Total Purchase
            Fiscal Year        Cost Per Unit         Units
                                                                         Cost
                                                   Purchased
               20091               $22,833                  12                $273,996
               2010                $25,858                 183              $4,732,041
               2011                $25,858                  72              $1,861,776
        Note 1: SSA OIG, Use of Video Hearings to Reduce the Hearing Case Backlog
        (A-05-08-18070), April 2011, p. B-2.

MAINTENANCE AND OTHER COSTS ASSOCIATED WITH VIDEO HEARINGS

We found maintenance cost increased by 48 percent between FYs 2009 and 2010 and
by 37 percent in FY 2011 (see Table D-4). Our analysis also shows, as the number of
units for both hearing room systems and DVUs increased, so did the cost of maintaining
them. In addition, the Agency incurred other costs, such as bridging and network costs
on a per-minute basis. Since some video participants are not a part of the SSA
network, the Agency must bridge them in as a third party.

           Table D-4: FYs 2009 Through 2012 Video Maintenance Costs
                 Type of Cost             FY 2009          FY2010          FY2011
          Hearing Room Systems            $1,651,447      $2,478,600      $3,128,544
          Number of Units                        533             675             852
          Desktop Video Units               $111,093        $129,516        $450,716
          Number of Units                         89             100             348
          Total Maintenance Costs         $1,763,162      $2,608,891      $3,580,460
          Percentage Change                                     48%             37%




Current and Expanded Use of Video Hearings (A-05-12-21287)                               D-2
                                                                        Appendix E

Video Equipment Installation, Maintenance, and
Contingency Plans
According to the Office of Disability Adjudication and Review (ODAR), the Division of
Electronic Services compiles a list of video requests each fiscal year that are based on
the following categories.

•   Commissioner initiatives
•   Backlog initiatives
•   Office of the Chief Administrative Law Judge (OCALJ) initiatives
•   Service Area Realignment
•   Regional needs

Before requesting funding, the requesting office must determine the type of video
equipment needed. When the Agency is granted the funding, OCALJ reviews the video
requests, prioritizes the list based on the need for the video equipment, and approves
the site for video equipment installation. The unfulfilled requests will remain on the list
until funding is available. The Agency uses three types of video equipment: a wall-
mounted room system with 60-inch television; a cart-mounted room system with 60-inch
television; and a desktop video unit.

Once a video hearing request is approved, the hearing office gathers information on the
site where the video equipment will be installed and sends the information to the Office
of Telecommunications and Systems Operations. For sites that are leased, ODAR
works with the General Services Administration to install video equipment. The
provisions of the lease allow ODAR to convert a space into video hearing space.

Whenever video hearing equipment malfunctions, ODAR’s first response is to call the
Video Communications Control Center (VCCC). VCCC has technicians on call to
resolve technical issues ODAR video hearing sites encounter. If a call cannot be
resolved via telephone, a technician will be sent to the site to assist. The hearing that is
scheduled during this malfunction will have to be rescheduled if the problem exists for
an extended period of time.

Each video hearing site provides guidance to ODAR staff in the event video hearing
equipment malfunctions. In addition to calling VCCC, ODAR staff can check to ensure
they have a connection and consult the contingency guidelines. All these actions must
be considered before rescheduling a hearing.




Current and Expanded Use of Video Hearings (A-05-12-21287)
                                                                              Appendix F

Consultant’s Cost Benefit Report on Video
Teleconferencing
The Social Security Administration (SSA) hired a consultant to determine the cost-
benefit associated with the Video Hearing initiative proposed by the Commissioner of
SSA. The consultant worked with the Office of Disability Adjudication and Review
(ODAR) to identify alternatives for the Video Hearing initiative and identify the cost-
benefit analysis of these alternatives, comparing these to a status quo cost before video
teleconferencing (VTC) over a 10-year period from Fiscal Years 2009 to 2018 (see
Table F-1).

                   Table F-1: Consultant-Provided VTC Alternatives with
                     Costs and Benefits from Fiscal Years 2009 to 2018
            Alternatives                      Description                    Costs/Benefits
                                 Assumes the status before the use
                                 of VTC in which ALJs traveled           $838,459,548
    Status Quo
                                 across different regions for
                                 hearings.
                                 Notes that ODAR already had
                                 several hundred VTC units rolled
                                 out nationwide and examined the         Cost: $242,803,891
    1 - Current VTC Rollout      impact of annual growth at the
                                 current rate (that is, an addition of   Benefit: $237,798,410
                                 100 wall mounted units and 100
                                 desktop video units, annually).
                                 Examines the impact of a rollout
                                 that is a hybrid of Alternatives 1      Cost: $226,263,693
                                 and 3, with VTC units in 80 percent
    2 - Hybrid VTC Rollout       of hearing rooms, 50 percent of         Benefit: $266,619,588
                                 administrative law judge (ALJ)
                                 offices, and 70 percent of field
                                 offices.
                                 Examines the impact of a full
                                 rollout with 100-percent saturation     Cost: $282,959,097
    3 – Full VTC Rollout
                                 by placing VTC in every hearing
                                 room, ALJ office, and field office.     Benefit: $271,545,293

The study1 estimated the Hybrid VTC Rollout offered the lowest cost, but the Full VTC
Rollout offered the most benefit. However, despite having a lower benefit than the Full
VTC Rollout, the Hybrid VTC Rollout provided a return on investment of 17.84 percent
where as the Full VTC Rollout return was lower. Therefore, the study concluded the

1
 SSA, Consultant Study, ODAR Video Telecommunications Conferencing Cost Benefit Analysis Update,
August 2009.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                       F-1
Hybrid VTC Rollout alternative was the best alternative to implement since it supported
the Commissioner’s initiative to reduce hearings backlogs, reduced ALJ travel, and
significantly reduced overall processing time of hearings. As a result, the consultant
recommended SSA expand video hearings use, as described under the Hybrid VTC
Rollout.

METHODOLOGY

•   Defined Cost and Benefit Structures: Consultant staff defined key cost drivers
    and defined key benefit instances. Cost drivers included labor, employee travel,
    witness travel, transportation, maintenance, and purchase cost. They also spoke
    with program staff to help identify cost savings, cost avoidance, qualitative benefits,
    and quantitative benefits.

•   Identified Data Sources and Collected Data: Consultant staff obtained prior data
    and estimates from ODAR, the Office of Budget, and Office of Telecommunications
    and Systems Operations. They identified cost, hearings held, hearings held by
    video, and ALJ travel data. They also spoke with key subject matter experts on the
    accuracy of these data.

•   Processed & Analyzed Data: Consultant staff took the data and projected its cost
    of a life-cycle, estimating the cost and benefit in relation to inflation.

•   Developed and Documented Estimates: Consultant staff took their estimates and
    determined the cost-benefit analysis. They identified cost for each alternative.




Current and Expanded Use of Video Hearings (A-05-12-21287)                               F-2
                                                                                Appendix G

Administrative Conference of the United States
Report
In May 2011, the Administrative Conference of the United States (ACUS) 1 issued a
report 2 about its in-house research project studying the use of video hearings by
Federal Government agencies with high volume caseloads and the possibilities for
expanding the use of video hearings by agencies as a means of increasing efficiency
and reducing cost in administrative adjudication. The report was divided into two parts.
Part one of the report provided a detailed look at how video hearings were implemented
and used by the Social Security Administration and other agencies. Information in the
first part of the report came primarily from interviews with knowledgeable officials at the
agencies, observations of some video hearings, and, where available, relevant
documents about the use of video hearings as provided by agency officials. Part two of
the report used the information learned through the research conducted for part one to
make recommendations for the use of video hearings by other Federal agencies with
high volume caseloads.

ACUS found that determining the exact costs and benefits of the Office of Disability
Adjudication and Review’s (ODAR) use of video hearings were difficult to measure
because data was scarce. However, the ACUS report stated that ODAR evaluated the
costs and benefits of video hearing use by hiring a consulting firm to conduct a cost-
benefit analysis to compare various alternatives for the use of video hearings.
According to ACUS staff, they used the consultant’s cost-benefit analysis that estimated
the cost of conducting ODAR hearings without the use of any video hearings would be
$838,459,548 over a 10-year lifecycle or $83,845,954 annually. In contrast, the
consultant’s estimated costs of ODAR’s current use of video hearings (and with the
amount of in-person hearings ODAR conducted at the time) was $242,803,891 over a
10-year lifecycle or $24,280,389 annually. The ACUS report used this data to estimate
that maintaining the current use of video hearings, instead of solely conducting in-
person hearings saved ODAR over $59 million dollars annually. 3




1
 ACUS is an independent Federal agency dedicated to improving the administrative process through
consensus-driven applied research, providing nonpartisan expert advice and recommendations for
improvement of Federal agency procedures. Its membership is composed of innovative Federal officials
and experts with diverse views and backgrounds from both the private sector and academia.
2
 ACUS in-house research report, Agency Use of Video Hearings: Best Practices and Possibilities for
Expansion, May 10, 2011, p. 11.

3
    We recalculated these estimated savings in the body of the report.




Current and Expanded Use of Video Hearings (A-05-12-21287)                                           G-1
As a result of this work, on June 17, 2011, ACUS recommended video hearings as a
best practice: 4

1. Federal agencies with high volume caseloads should consider using video
   teleconferencing (VTC) to conduct administrative hearings and other aspects of
   adjudicatory proceedings. Agencies with lower volume caseloads may also benefit
   from this recommendation.

2. Federal agencies with high volume caseloads should consider the following non-
   exclusive criteria when determining whether to use video teleconferencing
   technology in administrative hearings and other adjudicatory proceedings:

       a) whether an agency’s use of VTC is legally permissible under its organic
       legislation and other laws;

       (b) whether the nature and type of administrative hearings and other adjudicatory
       proceedings conducted by the agency are conducive to the use of VTC;

       (c) whether VTC can be used without affecting the outcome of cases heard by
       the agency;

       (d) whether the agency’s budget would allow for investment in appropriate and
       secure technology given the costs of VTC;

       (e) whether the use of VTC would create cost savings, such as savings
       associated with reductions in personnel travel and with increased productivity
       resulting from reductions in personnel time spent on travel;

       (f) whether the use of VTC would result in a reduction of the amount of wait time
       for an administrative hearing;

       (g) whether users of VTC, such as administrative law judges, hearing officers and
       other court staff, parties, witnesses, and attorneys (or other party
       representatives), would find the use of such technology beneficial;

       (h) whether the agency’s facilities and administration, both national and regional
       (if applicable), can be equipped to handle the technology and administration
       required for use of VTC;

       (i) whether the use of VTC would adversely affect the representation of a party at
       an administrative hearing or other adjudicatory proceeding; and

       (j) whether the communication between the various individuals present at a
       hearing or proceeding (including parties, witnesses, judges, hearing officers and

4
 ACUS, Administrative Conference Recommendation 2011-4, Agency Use of Video Hearings: Best
Practices and Possibilities for Expansion, adopted June 17, 2011.


Current and Expanded Use of Video Hearings (A-05-12-21287)                                   G-2
       other agency staff, translators and attorneys (or other party representatives))
       would be adversely affected.

3. Federal agencies with high volume caseloads that decide to use video
   teleconferencing technology to conduct administrative hearings and other
   adjudicatory proceedings should consider the following best practices:

       (a) Use VTC on a voluntary basis and allow a party to have an in-person hearing
       or proceeding if the party chooses to do so.

       (b) Periodically evaluate the use of VTC to make sure that the use is outcome-
       neutral (i.e., does not affect the decision rendered) and that the use is meeting
       the needs of its users.

       (c) Solicit feedback and comments (possibly through notice-and-comment
       rulemaking) about VTC from those who would use it regularly (e.g.,
       administrative law judges, hearing officers and other administrative staff, parties,
       witnesses, and attorneys (or other party representatives)).

       (d) Begin the use of VTC with a pilot program and then evaluate the pilot
       program before moving to wider use.

       (e) Structure training at the outset of implementation of VTC use and have
       technical support available for troubleshooting and implementation questions.

       (f) Consult the staff of ACUS and/or officials at other agencies that have used
       VTC for best practices, guidance, advice, and the possibilities for shared
       resources and collaboration.




Current and Expanded Use of Video Hearings (A-05-12-21287)                               G-3
                                                                           Appendix H

Questionnaire Sent to Office of Disability
Adjudication and Review Regional Offices
Please provide us with your:

Name:
Title:
Region:

Background:

At the request of the Congress, we are reviewing the role of video hearing at the Social
Security Administration (SSA). The Managers Report accompanying the Agency’s
Fiscal Year 2012 appropriations (signed December 23, 2011) states,

       Video Technology.-The conferees note the recent Administrative Conference
       of the United States report that referred to ODAR’s use of video technology as
       a model for other agencies. The conferees request a report by OIG [Office of
       the Inspector General] within 180 days of enactment analyzing legislative and
       administrative options, including potential challenges, for expanding access to
       video hearings. The report should analyze costs and benefits to the claimant,
       claimant representatives, and taxpayers related to the current use and
       potential expansion of the use of video hearings by SSA.

We are sending this questionnaire to get regional office insight on the current and
potential expanded use of video hearings in ODAR. We will hold your responses in the
strictest confidence. This survey should take approximately 5 -10 minutes to
complete. We thank you in advance for your thoughtful feedback.



 1. Have video hearings assisted you with your regional workload?
 Response                                                Count                Percentage
 Yes                                                       10                    100
 No                                                          0                     0
 Total                                                     10                    100




Current Use and Expansion of Video Hearings (A-05-12-21287)                                H-1
 1a. If Yes, in what way has it assisted you (select all that apply)?
 Response                                                     Count      Percentage
 Reduced hearing office backlogs                                10          100
 Improved case processing times                                 10          100
 Decreased ALJ travel to remote sites                           10          100
 Reduced hearing office costs, such as ALJ,                     7            70
 claimant, and claimant representative travel costs
 Other                                                          4            40

 2. How have video hearings been conducted in your region (please select all that
 apply)?
 Response                                               Count         Percentage
 Leased permanent remote sites with video                 9                 90
 equipment
 Video equipment located at field offices                 9                 90
 Regional claimant-only video (COV) sites                 6                 60
 Law firm equipment under the Representative              7                 70
 Video Project
 HOCALJ desktop video units (DVU) in the hearing         10                100
 offices
 Other than HOCALJ DVUs in the hearing offices            7                 70
 Assistance from hearing offices in other regions         5                 50
 Assistance from National Hearing Centers                 8                 80
 Other                                                    5                 50

 3. Do the hearing offices in your region have sufficient VTC equipment in the hearing
 offices and remote sites for the number of video hearings you would like to hold?
 Response                                                   Count        Percentage
 Yes                                                          4               40
 No                                                           6               60
 Total                                                       10              100

 4. Have you had any technical issues with the video equipment causing the delay of
 hearings?
 Response                                                Count        Percentage
 Yes                                                       5                50
 No                                                        5                50
 Total                                                     10              100

 4a. If Yes, please note the common type of issues such video quality, audio quality,
 communications connections, etc.?
 We received 5 written responses.




Current Use and Expansion of Video Hearings (A-05-12-21287)                              H-2
 5. Do you have any problems scheduling video hearings with all the required
 parties?
 Response                                              Count           Percentage
 Yes                                                     10                100
 No                                                       0                 0
 Total                                                   10                100

 5a. If Yes, please note the type of issues (please select all that apply):
 Response                                                    Count            Percentage
 Scheduling conflicts with vocational experts                    1                10
 Scheduling conflicts with medical experts                       2                20
 Scheduling conflicts with claimant representatives             10               100
 Claimants declining video hearings                              9                90
 Other                                                           6                60

 6. What percentage of your ALJs do you estimate held video hearings in the last 12
 months?
 Response                                               Count          Percentage
 1-25 percent                                             1                 10
 26-50 percent                                            1                 10
 51-75 percent                                            1                 10
 76-100 percent                                           7                 70
 Total                                                    10               100

 7. Do your ALJs still travel to remote sites to hold hearings?
 Response                                                    Count            Percentage
 Yes                                                          10                 100
 No                                                            0                  0
 Total                                                        10                 100

 7a. If Yes, what percent of your hearings are conducted by ALJs traveling to a remote
 site?
 We received 10 written responses.

 8. Do you need additional support from ODAR HQ to optimize your use of video
 hearings?
 Response                                              Count         Percentage
 Yes                                                      6                60
 No                                                       4                40
 Total                                                   10               100




Current Use and Expansion of Video Hearings (A-05-12-21287)                                H-3
 8a. If Yes, please note the type of support you need (please select all that apply):
 Response                                                  Count           Percentage
 More video equipment                                         3                  30
 Updated video equipment                                      2                  20
 Transfer of unused video equipment                           0                  0
 Additional video training                                    0                  0
 More physical space for video hearings                       4                  40
 Other                                                        1                  10
 Total                                                       10                 100

 9a. Please provide points of contact for us to obtain data related to regional cost
 savings as a result of video hearings held.
 We received 10 written responses.

 9b. Please provide points of contact for us to interview several ALJs in your region
 who currently travel to remote sites.
 We received 10 written responses.

 9c. Please provide points of contact for us to obtain information on the reduction of
 claimant waiting times related to the use of video hearings.
 We received 10 written responses.

 10. Do you have any suggestions to improve the video hearings process and/or save
 costs?
 We received 8 written responses.




Current Use and Expansion of Video Hearings (A-05-12-21287)                              H-4
                                                                       Appendix I

Survey of Administrative Law Judges on Travel
to Remote Sites
At our request, Office of Disability Adjudication and Review regional management
teams identified administrative law judges (ALJ) who traveled to remote sites during the
year. Responses represented 1 to 18 ALJs per region, with some regions providing a
combined response that may have represented more ALJs. We summarized highlights
from the survey responses.

•   Percent of Travel to Remote Sites: The majority of the ALJs stated 10 to
    33 percent of hearings they held involved travel to remote sites. However, those
    surveyed stated the percentage of travel to remote sites has decreased since the
    implementation of video hearings.

•   Travel Docket Size and Time Spent Traveling to Remote Sites: Most of the ALJs
    stated they scheduled 25 to 30 cases in their travel dockets, which equated to 5 to
    6 cases a day for a 5-day work week.

•   Time Spent at Remote Sites: Once the travel docket is scheduled, our survey
    showed ALJs will spend as many as 5 days at a remote site. However, some of the
    ALJs surveyed stated the days spent at a remote site did not require an overnight
    stay. Rather, they traveled to and from the remote site during the week.




Current Use and Expansion of Video Hearings (A-05-12-21287)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
 Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
 and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
